               Department of Veterans Affairs
               Office of Inspector General



                 Office of Healthcare Inspections

Report No. 13-04474-157


               Healthcare Inspection

  Podiatry Clinic Staffing Issues and
            Delays in Care 

   Central Alabama Veterans Health 

             Care System 

        Montgomery, Alabama 





May 19, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
                          Podiatry Clinic Staffing Issues and Delays in Care, CAVHCS, Montgomery, AL



                                 Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections conducted a review
at the request of Senator Jeff Sessions to assess allegations concerning Podiatry Clinic
staffing issues and delays in care at the Central Alabama Veterans Health Care System
in Montgomery, Alabama. The complainant alleged that:

      The Podiatry Clinic located at Maxwell Air Force Base had an insufficient number
       of trained clerical staff.
      New referrals and appointment scheduling were delayed due to a lack of trained
       clerical staff.

We substantiated the allegation that the clinic lacked a sufficient number of trained
clerical staff, which resulted in delays processing new referrals and scheduling
appointments. However, these delays appeared to be related to the frequent leave and
subsequent retirement of the assigned trained clerk and the lack of access to the
Department of Defense’s TRICARE® system for the clerks covering the clinic during
these absences. The facility addressed this gap by taking actions to ensure that the
clinic was staffed with a properly trained clerk on an interim and permanent basis, with
access to the TRICARE® system. We conducted a review of the timeframes for
scheduled appointments after the reassignment of a trained clerk and found that
Veterans Health Administration and Department of Defense patients were generally
scheduled within the required 7 days. We made no recommendations.

Comments
The Veterans Integrated Service Network and System Directors concurred with the
report. (See Appendixes A and B, pages 5–6, for the Directors’ comments.) No further
action is required.




                                                            JOHN D. DAIGH, JR., M.D.
                                                           Assistant Inspector General for
                                                             Healthcare Inspections




VA Office of Inspector General                                                                     i
                             Podiatry Clinic Staffing Issues and Delays in Care, CAVHCS, Montgomery, AL



                                               Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections assessed
allegations concerning staffing and delays in care at the Central Alabama Veterans
Health Care System’s (CAVHCS) combined Podiatry Clinic located at Maxwell Air Force
Base (MAFB), AL at the request of Senator Jeff Sessions. The purpose of the review
was to determine whether the allegations had merit.

                                           Background 

CAVHCS is a two-division health care system located in Montgomery and Tuskegee,
AL, that provides a broad range of inpatient and outpatient health care services.
Outpatient care is also provided at three community-based outpatient clinics located in
Dothan and Fort Rucker, AL, and in Columbus, GA. CAVHCS is part of Veterans
Integrated Service Network (VISN) 7 and serves a veteran population of about 134,000
in central and southeastern Alabama and western Georgia.

In 2004, a Memorandum of Understanding (MOU) was established between CAVHCS
and the 42nd Medical Group at MAFB to provide podiatry services to VA patients and
Department of Defense (DoD) beneficiaries. The combined Podiatry Clinic is staffed by
VA podiatrists and nurses but utilizes DoD space, utilities, and parking. The Podiatry
Clinic is located on the first floor of the MAFB clinic building approximately 8 miles from
CAVHCS’s Montgomery campus.

According to the 2004 MOU, CAVHCS and MAFB were each responsible for providing
one clerk to staff the Podiatry Clinic. Subsequently, MAFB removed their clerk from the
clinic, reportedly due to the low volume of administrative duties. In the revised
2011 MOU, CAVHCS is responsible for providing a podiatry clerk to schedule Veterans
Health Administration (VHA) and DoD referrals. Per the 2011 MOU, the Podiatry Clinic
must obtain an approved TRICARE®1 consult for each DoD beneficiary prior to
scheduling an appointment. The Podiatry Clinic clerk is required to have TRICARE®
access in order to obtain the approval. The clerk is then required to use VHA’s
electronic appointment management system to schedule an appointment. According to
VHA requirements, consults are to be acknowledged and an appointment scheduled
within 7 days of receipt by the specialty service.2,3

In October 2012, the OIG Hotline Division received a complaint regarding deficient
staffing and operations in the combined Podiatry Clinic and, in accordance with OIG
policy and practices, referred the case to CAVHCS leadership for review. Upon receipt
of CAVHCS’s response, OIG closed the complaint without further evaluation. On
September 13, 2013, the OIG received a congressional inquiry on behalf of the

1
  TRICARE® is the health care program serving Uniformed Service members, retirees, and their families.
2
  VHA Directive 2010-027, VHA Outpatient Scheduling Processes and Procedures, June 9, 2010.
3
  CAVHCS Memorandum 11-11-51, Clinical Consultation (Intra-Facility), September 19, 2011.




VA Office of Inspector General                                                                           1
                          Podiatry Clinic Staffing Issues and Delays in Care, CAVHCS, Montgomery, AL


complainant who reported errors in CAVHCS’s initial investigation and response.
Therefore, we conducted a review to determine whether there was an insufficient
number of trained clerical staff in the clinic and, if so, whether this deficiency resulted in
delays processing new referrals and scheduling appointments.

                            Scope and Methodology 

We conducted a site visit December 9–11, 2013. Prior to our site visit, we reviewed
documents provided by the complainant; relevant national and local policies and
procedures; the 2004 and 2011 MOUs; training records; patient advocate reports;
quality reviews; selected patient electronic health records (EHR); and data related to
podiatry workload, wait times, and clerical staffing. We interviewed the complainant, the
Chief of Staff, the Associate Chief of Staff for Acute Care and Specialty Care, and the
42nd Medical Group and CAVHCS patient advocates. We also interviewed staff from
the Business Office, Podiatry Service, and Nursing Service. During our on-site visit, we
toured the combined Podiatry Clinic.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




VA Office of Inspector General                                                                    2
                               Podiatry Clinic Staffing Issues and Delays in Care, CAVHCS, Montgomery, AL



                                      Inspection Results 

Clerical Staffing

We substantiated that the Podiatry Clinic periodically lacked a sufficient number of
adequately trained clerks to provide back-up coverage when the primary clerk was on
leave.

For several years, the Podiatry Clinic had a permanently assigned clerk who had
access to the TRICARE® system and VHA’s appointment management system and had
been trained to process the podiatry referrals for VHA and DoD patients. The assigned
clerk was absent from the clinic during several periods of planned and unplanned leave
between January 2012 and June 2013, and the only time coverage was provided by a
trained back up clerk was in February 2012. During other times when the primary clerk
was on leave, and then subsequently retired in June 2013, we did not find evidence that
a trained back-up clerk with TRICARE® access was available to manage the DoD
referrals.

New Referral Processing and Appointment Scheduling

We substantiated that at various times when the primary clerk was on leave, some DoD
referrals and appointments were not processed timely. Since the complainant did not
provide specific patient names, we reviewed the EHRs of VHA and DoD patients4 who
were referred during the 2 weeks after the primary clerk retired in June 2013. During
this period, 46 VHA and 11 DoD referrals were made for podiatry services, and the
covering clerk did not have access to the TRICARE® system to process the DoD
referrals. We found that, on average, VHA patients were scheduled within 3 days of
receipt of the consult. However, the average length of time to schedule DoD patients
was 9 days, which exceeded VHA expectations. The MAFB patient advocate informed
us that, in general, access to podiatry services has not been an issue for DoD patients.

As of June 27, 2013, three clerical staff have secured the necessary TRICARE® access
and training. The facility planned to have one clerk serve as the primary temporary
replacement, with two alternates available to provide coverage as needed. At the time
of our visit, we were informed that the hiring process for a permanent replacement clerk
was being completed. To evaluate the effectiveness of the new staffing arrangement,
we reviewed the EHRs of 50 VHA patients and 14 DoD patients who were referred
between July 15 and July 30, 2013. We found that during this period, both VHA and
DoD patients were generally scheduled within the required 7 days.




4
    VA podiatrists documented care and treatment to DoD beneficiaries in the VA EHR as defined in the MOU.




VA Office of Inspector General                                                                               3
                          Podiatry Clinic Staffing Issues and Delays in Care, CAVHCS, Montgomery, AL



                                      Conclusions 

We substantiated the allegation that at times, the Podiatry Clinic did not have properly
trained clerks to assure prompt management of the new DoD referrals. While the
allegation had merit, it appeared to be related to the frequent leave and subsequent
retirement of the primary clerk and the use of untrained clerks to provide coverage. The
facility addressed this gap in June 2013 by taking actions to train additional staff and
develop a plan for ongoing coverage.

We made no recommendations.




VA Office of Inspector General                                                                    4
                           Podiatry Clinic Staffing Issues and Delays in Care, CAVHCS, Montgomery, AL
                                                                                         Appendix A


                            VISN Director Comments


               Department of
               Veterans Affairs                                  Memorandum

    Date:      April 15, 2014

   From:       Director, Veterans Southeast Network (10N7)

 Subject: 	 Healthcare Inspection—Podiatry Clinic Staffing
            Issues and Delays in Care, CAVHCS, Montgomery, Alabama

       To:	    Director, Atlanta Office of Healthcare Inspections (54AT)
               Director, Management Review Service (VHA 10AR MRS OIG Hotline)


               1. I have reviewed the subject report and we appreciate your
                  comprehensive review of our systems and process. VISN 7
                  Network Office leadership will continue to provide CAVHCS the
                  needed support and resources to ensure that veterans receive the
                  best care and timely access.

               2. If you have questions or need additional information, please
                  contact my Dr. Robin Hindsman at 678-924-5723.




                   (original signed by:)
                   Charles E. Sepich, FACHE




VA Office of Inspector General                                                                     5
                           Podiatry Clinic Staffing Issues and Delays in Care, CAVHCS, Montgomery, AL
                                                                                         Appendix B


                          Facility Director Comments


               Department of
               Veterans Affairs                                   Memorandum

    Date: 	    April 8, 2014

   From: 	 Director, Central Alabama Veteran Health Care System (CAVHCS),
           Montgomery, AL (619/00)

 Subject: 	 Healthcare Inspection—Podiatry Clinic Staffing Issues and Delays in
            Care, CAVHCS, Montgomery, Alabama

       To:     Director, VA Southeast Network (10N7)


                1. CAVHCS concurs with the report findings related to the
                   December 9-11, 2013 review of the Maxwell Podiatry Clinic
                   located at Maxwell Air Force Base (AFB).

                2. CAVHCS 	Podiatry Clinic at Maxwell AFB maintains and
                   ensures a full time clerical staff, with Department of Defense’s
                   (DoD) TRICARE® system access.               There is a trained
                   permanent primary clerical staff member to perform scheduling
                   of appointments, follow-up and referrals.

                3. To ensure complete backup coverage in times of both planned
                   and unplanned absence, additional trained clerical staff
                   members with DoD TRICARE® system access are available.

                4. Currently, patients at CAVHCS Podiatry Clinic at Maxwell AFB
                   are scheduled within the seven-day timeframe as required.




                  (original signed by:)
                 James R. Talton, FACHE

                 Director





VA Office of Inspector General                                                                     6
                          Podiatry Clinic Staffing Issues and Delays in Care, CAVHCS, Montgomery, AL
                                                                                        Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Sheyla Desir, MSN, RN Team Leader
                         Victoria Coates, LICSW, MBA
                         Monika Gottlieb, MD
                         Toni Woodard, BS 

                         Robert Yang, MD





VA Office of Inspector General                                                                    7
                          Podiatry Clinic Staffing Issues and Delays in Care, CAVHCS, Montgomery, AL
                                                                                        Appendix D


                                  Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Southeast Network (10N7)
Director, CAVHCS, Montgomery, AL (619/00))

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Jeff Sessions, Richard C. Shelby
U.S. House of Representatives: Spencer Bachus, Martha Roby, Mike D. Rogers,
Terri Sewell


This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                    8
